USCA4 Appeal: 20-2232

Doc: 10

Filed: 04/26/2021

Pg:1of2

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-2232
APRIL LEDFORD,
Plaintiff - Appellant,
v.

EASTERN BAND OF CHEROKEE INDIANS,
Defendant - Appellee.

Appeal from the United States District Court for the Western District of North Carolina, at
Asheville. Martin K. Reidinger, Chief District Judge. (l:20-cv-00005-MR)
Submitted: April 22, 2021

Decided: April 26, 2021

Before GREGORY, Chief Judge, AGEE, Circuit Judge, and TRAXLER, Senior Circuit
Judge.
Affirm as modified by unpublished per curiam opinion.
April Ledford, Appellant Pro Se. Dale Allen Curriden, Nevin Wisnoski, VAN WINKLE
LAW FIRM, Asheville, North Carolina, for Appellee.
Unpublished opinions are not binding precedent in this circuit.

USCA4 Appeal: 20-2232

Doc: 10

Filed: 04/26/2021

Pg:2of2

PER CURIAM:
April Ledford appeals the district court’s order dismissing her complaint for lack of
subject matter jurisdiction. We have reviewed the record and conclude that the district
court correctly found that it lacked subject matter jurisdiction over Ledford’s complaint.
However, as the dismissal was based on the lack of subject matter jurisdiction, it “must be
one without prejudice, because a court that lacks jurisdiction has no power to adjudicate
and dispose of a claim on the merits.” S. Walk at Broadlands Homeowner’s Ass ’n, Inc. v.
OpenBandatBroadlands, LLC, 713 F.3d 175,185 (4th Cir. 2013). Accordingly, we affirm
the district court’s order dismissing Ledford’s complaint, but we modify the judgment to
reflect that Ledford’s complaint is dismissed without prejudice for lack of subject matter
jurisdiction. We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
decisional process.
AFFIRMED AS MODIFIED

2

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF NORTH CAROLINA
ASHEVILLE DIVISION
CIVIL CASE NO. 1:20-cv-00005-MR-WCM

APRIL LEDFORD

)
)

Plaintiff,

)
)

vs.
EASTERN BAND OF CHEROKEE
INDIANS,

)

)
)

MEMORANDUM OF
DECISION AND ORDER

)
)

Defendant.

)

THIS MATTER is before the Court on the Defendant’s Motion to
Dismiss Plaintiff’s Amended Complaint. [Doc. 16].
I.

BACKGROUND
On January 6, 2020, April Ledford (the “Plaintiff’), proceeding pro se,

filed a Complaint asserting a claim against the Eastern Band of Cherokee
Indians (the “Defendant”) under the Indian Civil Rights Act of 1968 (“ICRA”)
25 U.S.C. §§ 1301-04, for allegedly violating her due process rights by
terminating a life estate she held in Cherokee, North Carolina. [Doc. 1 at 3].
On January 31,2020, the Defendant filed a Motion to Dismiss for lack
of subject-matter jurisdiction and failure to state a claim. [Doc. 7]. On March
2, 2020, the Plaintiff filed an Amended Complaint. [Doc. 13]. On March 3

Case l:20-cv-00005-MR Document23 Filed 11/12/20 Page lot6

2020, the Court denied the Defendant’s Motion to Dismiss as moot. [Doc.
14].
On March 16, 2020, the Defendant filed a second Motion to Dismiss
on the same grounds. [Doc. 16]. On March 30, 2020, the Plaintiff responded
to the Defendant’s second Motion to Dismiss. [Doc. 19]. On April 6, 2020,
the Defendant replied. [Doc.21].
Having been fully briefed, this matter is ripe for disposition.
II.

STANDARD OF REVIEW
A motion to dismiss based on Federal Rule of Civil Procedure 12(b)(1)

addresses whether the Court has subject-matter jurisdiction to hear the
dispute. See Fed. R. Civ. P. 12(b)(1). A challenge to the Court’s subjectmatter jurisdiction under 12(b)(1) may be raised as either a facial or factual
attack. See Hutton v. Nat'l Bd. Of Exam'rs in Optometry. Inc.. 892 F.3d 613,
621 n.7 (4th Cir. 2018). In a facial attack, where a defendant contends that
a complaint fails to allege facts upon which the Court can base subjectmatter jurisdiction, the Court must assume as true the factual allegations in
the complaint. Adams v. Bain. 697 F.2d 1213, 1219 (4th Cir. 1982).

If,

however, the defendant makes a factual attack by contending that the
jurisdictional allegations contained in the complaint are false, the Court may
go beyond the allegations of the complaint in order to determine if the facts
2
Case l:20-cv-00005-MR Document 23 Filed 11/12/20 Page 2 of 6

support the Court's exercise of jurisdiction over the dispute, jd. The burden
of establishing subject-matter jurisdiction on a motion to dismiss rests with
the party asserting jurisdiction, in this case the Plaintiff.

Id.: Williams v.

United States. 50 F.3d 299, 304 (4th Cir. 1995).
III.

DISCUSSION

The Defendant’s second Motion to Dismiss argues that the Court lacks
subject-matter jurisdiction over the Plaintiff’s claims against the Defendant
under the ICRA. [Doc. 16 at 1]. 1
“[T]he Eastern Band of Cherokee Indians is an Indian tribe within the
meaning of the Constitution and laws of the United States.” Toineeta v.
Andrus. 503 F. Supp. 605, 608 (W.D.N.C. 1980). The Court lacks subjectmatter jurisdiction over suits against Indian tribes unless “Congress has
authorized the suit or the tribe has waived its immunity.” Kiowa Tribe of
Oklahoma v. Manuf. Techs.. Inc.. 523 U.S. 751, 754 (1998). To relinquish
its immunity, a tribe's waiver must be “clear[,j” Oklahoma Tax Comm'n v.
Citizen Band Potawatomi Tribe of Okla.. 498 U.S. 505, 509 (1991), and
“[ajlthough Congress has plenary authority over tribes, courts will not lightly
assume that Congress in fact intends to undermine Indian self-government.”

1 The Defendant’s Motion further argues that the Plaintiff’s claims are barred by sovereign
immunity and failure to exhaust her tribal remedies before bringing this action, fld.1.
3
Case l:20-cv-00005-MR Document 23 Filed 11/12/20 Page 3 of 6

Michigan v. Bay Mills Indian Cmtv.. 572 U.S. 782, 790 (2014) (citation
omitted).
The Plaintiff first argues that the Defendant waived its tribal sovereign
immunity when it “misused and broke its own laws” by discriminating against
the Plaintiff, allowed the Tribal . Council to go beyond the scope of its
authority, and acted in bad faith. [Doc. 20 at 3]. Those actions simply do not
constitute grounds for finding a waiver of tribal sovereign immunity. Indeed,
the Defendant would have little tribal sovereign immunity if it could be sued
for breaking laws, acting beyond the scope of its authority, or acting in bad
faith.

Because the Plaintiff presents no other basis for finding that the

Defendant has waived its tribal sovereign immunity, the Plaintiff has not
carried her burden to show that the Defendant waived its tribal sovereign
immunity for the Plaintiff’s claims. Adams, 697 F.2d at 1219 (stating that the
burden of proving subject-matter jurisdiction is on the party asserting
jurisdiction).
The Plaintiff next argues that Congress authorized claims against the
Defendant when it passed the ICRA. [Doc. 20 at 11].2 The ICRA, however
“neither served as a waiver of tribal sovereign immunity nor impliedly

2 Among other things, Title I of the ICRA provides that “[n]o Indian tribe in exercising
powers of self-government shall . . . take any private property for a public use without
just compensation!.]” 25 U.S.C. § 1302.
4
Case l:20-cv-00005-MR Document 23 Filed 11/12/20 Page 4 of 6

provided for a civil cause of action in federal courts . . .

Poodrv v.

Tonawanda Band of Seneca Indians. 85 F.3d 874, 886 (2d Cir. 1996) (citing
Santa Clara Pueblo v. Martinez. 436 U.S. 49. 59 (1978)); see also OxendineTavlor v. E. Band of Cherokee Indians. No. 1:20-cv-00214-MR, 2020 WL
5639307, at *1 (W.D.N.C. Sept. 14, 2020) (Reidinger, C.J.). As such, the
ICRA does “not establish a federal civil cause of action against a tribe or its
officers,. . . except in cases in which the relief sought could properly be cast
as a writ of habeas corpus.” Poodrv. 85 F.3d at 884.3
While the Plaintiff concedes that her claim is barred by the majority
opinion in Santa Clara Pueblo, she cites language from the dissenting
opinion in that case to argue that the Court should nevertheless exercise
subject-matter jurisdiction over her claim. [Doc. 20 at 11 (citing Santa Clara
Pueblo. 436 U.S. at 76 (White, J., dissenting)]. The dissenting opinion cited
by the Plaintiff expressly agrees with the majority opinion “that the [ICRA]
does not constitute a waiver of the [tribe’s] sovereign immunity.” Santa Clara
Pueblo. 436 U.S. at 73 (White, J. dissenting). More importantly, however
the majority opinion in Santa Clara Pueblo has never been overturned and
has been consistently applied by the United States Supreme Court, the

3 When seeking relief that cannot be cast as a writ of habeas corpus, “[t]ribal forums are
available to vindicate rights created by the ICRA[.]” Santa Clara Pueblo. 436 U.S. at 65.
5
Case l:20-cv-00005-MR Document 23 Filed 11/12/20 Page 5 of 6

Fourth Circuit and this Court. See, e.q.. Nat'l Farmers Union Ins. Companies
v. Crow Tribe of Indians. 468 U.S. 1315, 1317 (1984); Crowe v. E. Band of
Cherokee Indians. Inc.. 584 F.2d 45, 45 (4th Cir. 1978); Oxendine-Tavlor,
2020 WL 5639307, at *1. Accordingly, that opinion constitutes controlling
precedent for this Court.

Because Santa Clara Pueblo only permits civil

actions under the ICRA that seek habeas corpus as a remedy, the Court
lacks subject-matter jurisdiction over the Plaintiff’s claims.
ORDER
IT IS, THEREFORE, ORDERED that the Defendant’s second Motion
to Dismiss [Doc. 16] GRANTED and the Plaintiff’s Amended Complaint [Doc.
13] is DISMISSED.
The Clerk of Court is respectfully directed to close this civil case.
IT IS SO ORDERED.
Signed: November 11, 2020

MartinReidinger
Chief United States District Judge

If

6
Case l:20-cv-00005-MR Document 23 Filed 11/12/20 Page 6 of 6

To: Cherokee Tribal Court, Cherokee NC
APPEAL

June 23, 2017

I, April Ledford, am respectfully appealing the decision of Judge Thomas Cochran of the Eastern Band of
Cherokee Indians' Tribal Court on June 5,2017 in which he decided to sign eviction papers against me.
He decided that EBCI council was correct in changing my husband's will (Bill J Ledford, former vice-chief
of the EBCI who hired an attorney in 2007 to draft his will, deemed valid by Orange County NC and
Cherokee Tribal Court). My husband was lucid until the day he died on October 29, 2013. I have
medical records to prove this. Yet on June 5, 2017 I was not allowed to present my side of the story.
I have written numerous letters to Council. No response, except that Bill Taylor, a friend of William John
Ledford (Bill's oldest son) wrote me and told me he would call the police for harassment if I wrote him
again. I requested time to speak before council and I never received a "yay" or "nay".
Damin Ledford, Bill's grandson, was not mentioned in the will, yet he is the one fighting for the house.
William John Ledford, Bill's oldest son, was on my side last year and asked Council to respect his father's
wishes. He sent his two sons, Damin and Jarin Ledford, to "help", but it was a sabotage. Jarin Ledford
was charged with forgery in New Mexico and Damin was charged with attempted burglary (knife and
flashlight on another's property). I asked them to follow some basic rules but they disregarded them: I
asked them to leave their dog outside but they kept having him inside; I asked that they keep the door
open to the room where my cats could use their litter box but they kept shutting it, forcing my cats to
have nowhere else to go but on the living room carpet. Later they complained to William John Ledford
about fleas and cat feces.
Moreover, I never received adequate notice about Council's meeting in January 2017. My mother
passed on December 29, 2016 and I was out west to bury her and celebrate her life. I believe Jarin
Ledford, on Facebook, saw the news and things quickly started to roll as far as a meeting with Council
(with me having no idea it was happening).
I was told it was too late to protest the Council's decision but the Cherokee Code allows one to reopen
the decision of Council if there is new and relevant evidence. When I was in Arkansas mourning my
mother's death, William John and Jason Ledford told Council I had a home in Chapel Hill, NC. That was
not true. That home was foreclosed upon in 2016. That is new and relevant evidence.
All of Bill's children were given at least 10 acres apiece while Bill was alive (William John sold his 10 acres
years ago). All of them have homes. Bill wanted me to have a home too.
Thank you.
Respectfully,
April Ledford

i

PO Box 1394
Whittier NC 28789
(140 Greybeard Hill Drive, Cherokee NC 28719)
Phone: 828-788-2953
L
'A->

\UV,|l»,////,

aXt
li/j

Notary Public
Swain County

= My

Vo

■z.

y PlfeS ^

3
ri-.:"

CRhROr .■

' ■ M. R'RFJ

EASTERN BAND OF CHEROKEE INDIANS • - • __g p j £}• f}^> ^
Cherokee, North Carolina

EST13-087

t---

r.D

I*

The Cherokee Court
Before the Clerk

IN THE MATTER OF THE ESTATE OF

Ancillary Letters

Bill J. Ledford
DoD: 10/29/2013

G.S. 28A-G-1

Ttie Court in the exercise of its jurisdiction of the probate of wills and the administration of estates, and upon application
of the fiduciary, has adjudged legally sufficient the qualification of the fiduciary named below and orders that Letters be
issued m the above estate.

X

.

.

The fiduciary is fully authorized bfthe laws of the Eastern Band of Cherokee Indians to receive and administer all of the
assets belonging to the estate.'and these tetters are issued to attest to that authority and to certify that it is now in fun
force and effect.
/
' ■ j*;
>'/
■ >. \V

P,......

'-v-\\

Witness my hand and the Seal’of the Cherokee Court;

'?.'//

7'/

•a

\
*

v.

r.-*.

*•'

■

/

S*

• v.

• i
?

• —. : ,

Name end Address of Fiduciary 1

□an or Qualification

April Christian Zotecan Ledford

December 9, 2013

RPBBBflfWB

PO Box 503

Jack Gloyne

Carrboro, NC 27510
EX OFFICIO JUDGE OF PROBATE

Name and Address of Fiduciary 2

Date of Quafifirydion
§&of tssuanc

December9, 2013

~?5i SEAL )5!

7

403
Original-File

Copy:

BIA Really

Enrollment

Bank

1/14/2021

Marin County Bar Association

MARIN COUNTY BAR ASSOCIATION

Why Exhausting Tribal Remedies is Typically
Required Prior to Challenging Jurisdiction in
an Alternative Court
FEB 27, 2017
BY MARISA R. CHAVES

Y

our client has been sued in a tribal court. What now? The uncertainty of practicing in a foreign court can be
daunting. As each tribe is a sovereign nation, the most important thing you can do is first learn the
practices and procedures of that particular tribe’s legal proceedings. It is also important to have a good

handle on the tribe’s particular decisions and statutes. Even the requirements for being admitted to
practice in tribal court can vary from tribe to tribe, so it is not a given that you will be authorized to appear, even if the
tribe is located in the state where you are licensed.
All of this means that many attorneys seek ways to remove their case from the tribal court. Depending on the parties, facts, and
circumstances surrounding the issue at hand, the tribal court may or may not have jurisdiction to hear the case. If you believe the tribal
court doesn't have jurisdiction to hear the matter, your best option to challenge that jurisdiction is still in the tribal court itself, before
looking to a federal court. The reason is that any litigant has a “duty to exhaust tribal remedies prior to proceeding in federal courLB
Allstate Indent. Co. v. Stump, 191 F.3d 1071, 1073 (9th Cir.), amended, 197 F.3d 1031 (9th Cir. 1999). Tribes are permitted to defer
jurisdiction to their courts prior to federal court intervention.
A federal court will not review the case on its merits and will focus solely on the issue of tribal court jurisdiction and whether all tribal
remedies have been exhausted. Federal law has long recognized a respect for comity and deference to the tribal court as the appropriate
court of first impression to determine jurisdiction. See Nat'l Farmers Union Ins. Cos. v. Crow Tribe of Indians, 471 U.S. 845, 856-57 (1985);
Iowa Mut. Ins. Co. v. LaPlante, 480 U.S. 9, 15-16 (1987); Burlington N. R.R. Co. v. Crow Tribal Council, 940 F.2d 1239, 1244-47 (9th Cir.
1991). Courts have even held that exhaustion of tribal remedies is “mandatory.” Burlington N. R.R. Co., 940 F.2d at 1245. This exhaustion
requirement will even include any appellate review by the tribal court (if an appellate tribal court exists).
As support for this premise, the Supreme Court cites: (1) Congress’s commitment to “a policy of supporting tribal self-government and
self-determination;’’ (2) a policy that allows “the forum whose jurisdiction is being challenged the first opportunity to evaluate the factual
and legal bases for the challenge;” and (3) judicial economy, which will best be served “by allowing a full record to be developed in the
Tribal Court.” Nat'l Farmers, 471 U.S. at 856. Courts have interpreted National Farmers as determining that tribal court exhaustion is not a
jurisdictional bar, but rather a prerequisite to a federal court’s exercise of its jurisdiction. Burlington N. R.R. Co., 940 F.2d at 1245 n.3.
“Therefore, under National Farmers, the federal courts should not even make a ruling on tribal court jurisdiction... until tribal remedies
are exhausted.” Stock West, Inc. v. Confederated Tribes of the Colville Reservation, 873 F.2d 1221,1228 (9th Cir. 1989).

https://marinbar.org/news/print/?id=189

1/2

1/14/2021

Marin County Bar Association

There are exceptions to the rule. The four recognized exceptions to the requirement for exhaustion of tribal court remedies are: (1) an
assertion of tribal jurisdiction is motivated by a desire to harass or is conducted in bad faith; (2) the action is patently violative of express
jurisdictional prohibitions; (3) exhaustion would be futile because of the lack of adequate opportunity to challenge the court’s jurisdiction;
or (4) it is plain that tribal court jurisdiction is lacking. Burlington Northern R.R. v.RedWolf, 196 F.3d 1059,1065 (9th Cir. Mont. 1999)
(citations omitted).
However, even if you believe the specific claim against your client falls under one of these exceptions, it is still wise to challenge that
jurisdiction in tribal court first. The main reason being that the tribal exhaustion doctrine only requires that a “colorable claim” of tribal
court jurisdiction be asserted, and courts give broad deference to the tribal courts to decide their own jurisdiction. Even if the tribal court
is new or inexperienced, alleged incompetence or bias is not included in the exceptions to the exhaustion requirement. Iowa Mut Ins. Co.
480 U.S. at 18-19. Starting in tribal court allows you to avoid the risk and expense of challenging such jurisdiction in federal court-and
the need to overcome a very difficult hurdle-only to have the court tell you to go back and challenge it in tribal court first
Unfortunately, exhausting tribal court remedies is a difficult hurdle to overcome when dealing with the issue of jurisdiction. Therefore, if
you and your client foresee a potential lawsuit, the best defense is a good offense. If there is any potential claim for a counter-suit or cross­
complaint, the party filing the lawsuit can pick the most appropriate or more favorable venue. It is much more difficult to argue that a tribal
court should have jurisdiction over another venue when it was brought property in the other venue first

Marisa R. Chaves is Senior Counsel with the law firm of Vasquez Estrada & Conway LLP in San Rafael, CA. Her litigation practice includes
personal injury, premises and products liability, construction defect, medical malpractice, toxic tort, and general liability claims. Ms. Chaves
also has experience working with Native American tribes and tribal councils, and has represented several tribes throughout California.

COPYRIGHT 2021 MARIN COUNTY BAR ASSOCIATION

https://marinbar.org/news/print/?id=189

212

LAST WILL AND TESTAMENT
OF
BILL J. LEDFORD

t;i-x

CHERfK-HF YnmAL COURT

t\z\ v CUC

20B MOV 12 PH 2: 27

I, BILL J. LEDFORD, a member of the Eastern Band of Cherokee bTdiafts, RRjp
1441, domiciled in Swain County, Ndrth Carolina, declare this to be my las^will^hereb^
revoking all wills and codicils theretofore made by me.
ARTICLE I
I direct that all of my just debts, including unpaid charitable pledges whether or
not the same are enforceable obligations of my estate, my funeral expenses, including the
cost of a suitable marker at my grave, and the cost of administration of my estate be paid
out of the assets of my estate as soon as practicable after my death.
ARTICLE II
I direct that all estate and inheritance taxes and other taxes in the general nature
thereof (together with any interest imposed or penalty thereon), but not including any
taxes imposed on generation-skipping transfers under the Federal tax laws, nor any
Qualified Terminable Interest Property Tax, which shall become payable upon or by
reason of my death with respect to any property passing by or under the terms of this will
or any codicil to it hereafter executed by me, or with respect to the proceeds of any policy
or policies of insurance on my life, or with respect to any other property (including
property over which I have a taxable power of appointment) including in my gross estate
for the purpose of such taxes, shall be paid by my Executrix out of the principal of my
residuary estate, and I direct that no part of any such taxes be charged against or collected
from the person receiving or in possession of the property taxed, or receiving the benefit
thereof, it being my intention that all such persons, legatees, devisees, surviving tenant by
the entirety, appointees and beneficiaries receive full benefits without any diminution on
account of such taxes.
ARTICLE III
All of the residue of the property which I may own at the time of my death, real or
personal, tangible and intangible, of whatsoever nature and wheresoever situated,
including all property which I may acquire or become entitled to after the execution of
this will, including all lapsed legacies and devises, or other gifts made by this will, which
fail for any reason but excluding any property over or concerning which I may have any
power of appointment, I bequeath and devise in fee to my wife, APRIL CHRISTIAN
ZOTECAN LEDFORD. In the event that my said wife shall predecease me, or in the
event that we die as the result of a common disaster, or in such manner that it cannot be
determined which of us survived the other, then said property to my son, WILLIAM
JOHN LEDFORD, and to my grandsons, JASON LEDFORD and JARIN ,
CERTIFIED TRUE COP^I$0!f6$fcJftAEqually, share and share alike. Should one of my above named descendants
Cierkxif Superior Court Orange County
¥
Assistant.. Deputy Clerk of Superior
rate.

predecease me leaving issue then that grandchildren) shall take the share to which
his/her or their parent would have been entitled had he or she survived me.
I convey specifically to my wife, APRIL CHRISTIAN ZOTECAN
LEDFORD, a life estate in my property on 140 Greybeard Hill, Cherokee, North
Carolina to include parcel number 372, parcel number 134 (part of parcel number 42) and
parcel number 522 (part of parcel number 192)
During my lifetime I have conveyed real property to each of my sons and to my
daughter. That this instrument leaves nothing further is not an indication of my love and
affection for them but simply representative of the gifts I have given to them during my
life time.

Article iv
I hereby grant to my Executrix including any substitute or successor, personal
representative, the continuing, absolute, discretionary power to deal with any property,
real or personal, held in my estate as freely as I might in the handling of my own affairs.
Such power may be exercised independently and without prior or subsequent approval of
any court or judicial authority, and no persona dealing with my Executrix shall be
required to inquire into the propriety of any of her actions. Without in any way limiting
the generality of the foregoing and subject to North Carolina General Statutes, Section
32-26, I hereby grant my Executrix all the powers set forth in North Carolina General
Statutes, Section 32-27, and these powers are hereby incorporated by reference and made
a part of this instrument and such powers are intended to be in addition to and not in
substitution of the powers conferred by law.
ARTICLE V
I appoint my wife, APRIL CHRISTIAN ZOTECAN LEDFORD, to be the
Executrix of this my last will. I direct that no surety be required on the bond of my
Executrix hereunder. If my said wife, APRIL CHRISTIAN ZOTECAN LEDFORD,
shall predecease me or for any reason shall fail to qualify as Executrix hereunder or
having qualified shall die or resign, then and in such event, I. appoint my son, WILLIAM
JOHN LEDFORD, to be the Executor of my estate; and in such capacity he shall
possess and exercise all powers and authority herein conferred on my wife, APRIL
CHRISTIAN ZOTECAN LEDFORD. I vest my Executrix/Executor with full power
and authority to sell, transfer, and convey any property, real or personal, which I may
own at the time of my death, at such time and place and upon such terms and conditions
as she/he may determine and to do every other act and thing necessary or appropriate for
the complete administration of my estate.
ARTICLE VI
In conclusion, I request that my funeral and/or memorial service be conducted by
STEVE PHILIPPI, who, at the time of this writing, is the minister of the United

*•

Methodist Church in Cherokee, North Carolina. I request that the Christian service he
presents will be accompanied by an Indian drum group and/or by other Native American
music, singing and ceremony that STEVE PHILIPPI and my wife, APRIL
CHRISTIAN ZOTECAN LEDFORD, and my son WILLIAM JOHN LEDFORD,
approve. I further direct that my remains be laid to rest in the cemetery located on 140
Greybeard Hill, Cherokee, Swain County, Cherokee, North Carolina. I direct that my
wife, APRIL CHRISTIAN ZOTECAN LEDFORD, and my son, WILLIAM JOHN
LEDFORD, be the caretakers of my grave and that no one be disallowed from visiting
my gravesite.
IN WITNESS WHEREOF, I sign, seal, publish and declare this instrument to by
my last will, this the 23rd day of February, 2007, at Maggie Valley, North Carolina.

A.JLA

.(SEAL)

BILL J. LEDtORD^

The foregoing instrument was signed, sealed, published and declared by BILL J.
LEDFORD, the Testator, to be his last will, and in our presence, and we, at his request,
and in his presence and in the presence of each other have hereunto subscribed our names
as witnesses, this the 23rd day of February, 2007, at Maggie Valley, North Carolina.

A

Y

<*- c/^A,

RESIDING AT
:SIDING AT

VAl

VI Pa

oa |

NORTH CAROLINA - HAYWOOD COUNTY
I, BILL J. LEDFORD, the Testator, sign my name to this instrument this the
23rd day of February 2007, and being first duly sworn, do hereby declare to the
undersigned authority that I signed it willingly (or willingly directed another to sign it for
me), that I executed it as my free and voluntary act for the purpose therein expressed, and
that I am eighteen years of age or older, of sound mind, and under no constraint or undue
influence.
(SEAL)
BILL J. LEDFO

We
__________ and
the witnesses, sign our names~io this instrument, being first duly sworn, and do hereby
declare to the undersigned authority that the Testator signed and executed this instrument

Wv

1

as his last will and that he signed it willingly (or willingly directed another to sign for
him), and that each of us, in the presence and hearing of the Testator, hereby sign this
will as witness to the Testator's signing, and that to the best of our knowledge the
Testator is eighteen years of age or older, of sound mind, and under no constraint or
undue influence.
JtSEAL)

Vi

L

(SEAL)

NORTH CAROLINA - HAYWOOD COUNTY
SUBSCRIBED, SWORN TO AND ACKNOWLEDGED before me BILL J.
LEDFORD, the Testator and : subscribed and sworn to before me by
’witoesses’

My Commission Expires:

V^. 8L 2?/NoXpublic^^

i

!

